Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




   MEDICARE HMO APPEAL AND
     GRIEVANCE PROCESSES

               Overview
                        OFFICE     OF INSPECTOR          GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,

is to protect the integrity of the Department   of Health and Human Services programs

as well as the health and welfare of beneficiaries served by them. This statutory

mission is carried out through a nationwide program of audits, investigations,

inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary

of program and management        problems and recommends legislative, regulatory, and

operational   approaches to correct them.





                         Office of Evaluation      and Inspections

The Office of Evaluation and Inspections (OEI) is one of several          components of the

Office of Inspector General.     It conducts short-term management        and program

evaluations (called inspections) that focus on issues of concern to       the Department,    the

Congress, and the public. The inspection reports provide findings          and

recommendations     on the efficiency, vulnerability, and effectiveness     of departmental

programs.


The OEI’S Kansas City Regional Office prepared this report under the direction             of

James H. Wolf, Regional Inspector General.   Principal OEI staff included:


KANSAS CITY REGION                                  HEADQUARTERS

Linda Paddock, Project Leader                       Stuart Wright, Program  Specialist

Jennifer Collins, Program Analyst                   Barbara Tedesco, Mathematical

Hugh Owens, Program Analyst                          Statistician

                                                    Brian Ritchie, Program Analyst
DALLAS REGION
Judith Tyler, Program    Analyst

To obtain a copy of this report,   call the Kansas City Regional    Office at (816)426-3697.
Department of Health and Human Services

        OFFICE OF

   INSPECTOR GENERAL





   MEDICARE HMO APPEAL AND

     GRIEVANCE PROCESSES

                                 Overview




                  SE RVICE$
              #
          @                   fiaq
          +

        g
         %?
                                     JUNE    GIBBS BROWN
        <                            Inspector    General
        2
        75 $
         ‘++--                              DECEMBER 1996
            ‘%d~~
             >                               0EI-07-94-O0280
                         TABLE                    OF         CONTENTS

                                                                                                                    PAGE

PURPOSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..1

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1

FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

        �   Beneficiary Awareness
        �   Communication    of Denials
       .    Compliance with HCFA Directives
       .    Publications and Procedures
       .    Statistics

RECOMMENDATIONS                      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..2

       .    Monitoring

       .    Standard Language

       .    Distinguishing Appeals           and Grievances

       .    Data

       .    HMO/CMPManual

       .    Training


RELATED REPORTS                    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...5

Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...6

Appendix kHCFAResponse                        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..A-l
       Medicare HMO Appeal And Grievance Processes

PURPOSE

To examine the operations of the Medicare risk-based Health          Maintenance
Organizations’ (HMOS) appeal and grievance processes.

BACKGROUND

The goals ofmanaged       care are to provide preventive and coordinated medical care,
offer comprehensive     benefits, and contain costs by using the most cost-efficient
methods of treatment and preventing unnecessary care. Because the payment
mechanism of HMOS may provide incentives to limit services, the Social Security Act
requires establishment    of two separate and distinct processes to handle Medicare
beneficiary complaints.

The appeals process, which covers disputes involving denials of services or payment,
begins within the plan and extends to outside administrative and judicial reviews.
Regulations require a five-step appeals process and time limits for each step.

The grievance      process involves disagreements    relating to services furnished for which
the beneficiary     has no further liability for payment.    It also includes such issues as
quality of care,    physician behavior, waiting times for services, and involuntary
disenrollment.      Grievance regulations do not contain time frames or specific levels of
review but call    for “timely” transmission, investigation, decision and notification of
results.

We examined these processes through: a survey of 426 beneficiaries; a survey of 132
risk-based HMOS; analysis of written procedures and marketing/enrollment   material
from these HMOS; and on-site reviews of 10 HMOS where we interviewed staff and
examined 144 appeal and 148 grievance case files.

FINDINGS

BENEFICL4RYA W~NESS.           A majo@ of beneficiaries are aware they have the right to
fonmdly compkzin about swims and paymentx       Howeve~ they have less Undentanding
of the particular cimumstaruxx &     which these righfi can be exenxkd.

Eighty-six percent of respondents stated that they know they have the right to
complain about their plan’s medical care or services. However, one-third of
beneficiaries did not know or were not sure of their right to complain about specific
problems for which filing an appeal or grievance is possible.




                                                 1

COM’UUNKATION OF DENL4LS. The COmmunication between the HMO and the
beneficiary that a service or payment has been dknied does not work wel

When an HMO denies a semice or payment, the HMO is required to issue a written
explanation for the denial, including the right to appeal. Thirty-four of 41 sumeyed
beneficiaries who believed they had been refused referral to a specialist indicated they
did not receive a denial letter. Also, our review of cases revealed that 39 out of 144
files lacked documentation    that service or payment denial notices were sent and an
additional 6 cases did not include the required instructions on the beneficiaries’ right
to appeal the decision.

COMPLL4NCE WITH HEALTH CARE FIN4NCING ADMNI.STRATION (HCFA)
DIRECT~S.       HMOS do not frilly comp~ with HCFA directives for processing appak
and grievances.

Through our case reviews we noted problems involving failure to noti& beneficiaries
of their appeal and grievance rights and lack of or delays in processing, referring, and
resolving complaints.   Furthermore,    HMOS do not always correctly categorize appeals
and grievances.   Fifty percent of those we surveyed incorrectly categorized appeals as
grievances while all 10 HMOS we visited improperly processed from 1 to 12 appeal
cases as grievances.   This distinction is important to beneficiaries because appeal cases
are subject to independent    Federal review for appropriateness     of the HMO decision
while disputes involving grievance issues are only subject to internal HMO reviews.

PUBLICATIONS M         PROCEDURES. HMOS’ numketingienrollrnent matenhk and
operating procedures that we reviewed contain incowect or incomplete tiforrnation on
appal and grkvance righlk

Sixty-six percent of HMOS distribute materials to beneficiaries and 69 percent     of
HMOS use operating procedures that contain either incorrect or incomplete
information regarding beneficiary appeal and grievance rights.

STATISTICS. HMOS do not maintain statktical       informatkm   needed for the ongoing
evaiktkm  of appal and grievance practices.

Eighteen percent of HMOS in our sample could not produce statistical information
relating to numbers of appeal and grievance cases. This poses significant problems
given that such statistical information is needed by HCFA, beneficiaries, and others as
a basis for evaluating HMO performance.

RECOMMENDATIONS

HCFA’S Office of Managed Care is making substantial efforts to improve the HMO
appeal and grievance processes.   It has created the Managed Care Appeals and
Grievance Initiative work group organized to make program improvements        in these
functions. In 1995, they revised the annual review guidelines and standardized



                                             2

language in the “lock in” and “Evidence of Coverage” notices. The 1996 Medicare
Handbook also included expanded appeal and grievance information and was sent to
all Medicare beneficiaries.   Additionally, HCFA is developing national guidelines for
marketing materials, improving publications, educating outside entities, and
highlighting beneficiary rights. While these efforts should favorably impact these
processes, we believe there is still room for improvement.

We recommend         that HCFA   take a number    of actions to address   problems   highlighted
in our studies.

  �	   MONITORING. Actively monitor HMOS to ensure bentficiati         are iwued written
       determinations, ikch.iding ap~al rights, and emphasize the need for benejkiaries to
       communicate cikarly any disagreement thq have with HMO dkisions to deny
       services or payment for services. This can be accomplished by:

       - continuing HCFA’S extensive efforts to make beneficiaries aware of appeal
         and grievance provisions and of the need to communicate    clearly any
         disagreement  they may have with a physician’s decision to deny a requested
         service and

       - emphasizing to HMOS the requirements     to make beneficiaries aware of
         appeal and grievance rights and to provide written initial determination
         notices when the patient communicates   disagreement with a decision to deny
         a requested service or payment.

       Federal regulations are intended to protect the rights of beneficiaries to appeal
       the denial of services by HMOS, while maintaining the ability of the physician
       to treat the patient in line with his or her medical judgment.  It is not always
       possible at the time of service for the physician to know whether a beneficiary
       believes that a service has been denied unless the beneficiary specifically
       communicates    this to the physician. Therefore, future HMO marketing,
       enrollment, and awareness sessions with Medicare beneficiaries and physicians
       should emphasize the importance of clear and open communication.

  �	   ST~ARD      LANGUAGE. Work with HMOS to establkh staiu-kmdized appal and
       grievance kmguage requiremenfi in rnark@ing/enrollment materials and opmting
       procedures.

       - In marketing materials, provide up front information to beneficiaries           on their
         rights under the appeal and grievance processes and

       - In enrollment materials, more thoroughly educate beneficiaries about their
         specific rights under the appeal and grievance processes, including

                  --a detailed overview of the types of services, lack of services, or
                    situations which may be appealed or grieved.


                                                 3

            --when and under what circumstances                 further    levels of appeal       are
              permitted.

            --clarification   that only appeals         and not grievances,       are subject to
              independent      Federal review.

            --the difference between the definitions of emergency                     and urgent        care at
              the time medical semices are being sought.

�	   DISTINGUISHING APPEALS AND GRIEVANCES.                             Ensure that HMOS correct~
     distinguish and process appah and grievances.

     HCFA can accomplish this during their annual visits to HMOS. However, we
     suggest that HCFA conduct case reviews as well as examine the operating
     procedures to determine that appeals and grievances are processed correctly.
     We also suggest that HCFA focus closely on whether HMOS:

     - are in compliance      with all directives       in processing     of appeal    and grievance
       cases;

     - include appeal   rights in all initial determinations            sent to beneficiaries;          and

     - release initial determinations and reconsideration                 decisions   in appeal     cases
       according to established time frames.

�	   DATA. Require HMOS to reprt Medicare contract specific dlzta on appal                              and
     griiwance cases. At a minimum, include:

     - number of appeal       and grievance    cases (including           formal and informal
       grievances);

     - number   of cases resolved     internally    and externally,        and outcomes       of cases;

     - issues involved in cases; and

     - time it takes to resolve the cases (upper            and lower limits, median/mean).




                                                   4

  .	   HMO/Clk@ M4NUAL. Modijj the HMO/CMP Manual to cliuijj and specfi                 key
       requirements. This can be achieved by:

       - clari&ing the explanation and language    required on the appeal and grievance
         issues to improve HMOS’ understanding       of the differences and

       - establishing minimum requirements      for documentation   of appeal and
         grievance files so that an independent    reviewer, based upon examining the
         files, will be able to follow and understand the adjudication by the HMO.

  �    TRALMNG. Broaden ejfo~       to fomudly train HMOS on the appal      and grievance
       processes.

       We noted a significant amount of turnover in HMO staff responsible for
       processing appeals and grievance cases during this inspection.    In light of this
       turnover, there is a need to continue training on a routine basis.




RELATED REPORTS

       Details concerning the findings and recommendations   in these reports     are
       contained in three separate technical reports. These reports are:

       Medicare HMO Appeal and Grievance Processes:
       Beneficiaries’ Understanding, (OEI-07-94-00281)

       Medicare HMO Appeal and Grievance          Processes:
       Survey of HMOS, (OEI-07-94-O0282)

       Medicare HMO Appeal and Grievance          Processes:
       Review of Cases, (OEI-07-94-00283)




Copies of these reports may be obtained    from the Kansas City Regional     Office, Office
of Inspector General at (816) 426-3697.




   1 Competitive Medical Plan



                                             5
AGENCY COMMENTS

We solicited and received comments on our draft report from HCFA. The complete
text of their response is included as an appendix to this report. A summary of their
comments and our response follows.

The HCFA agreed with the conclusion of our reports that improvements          are needed
and indicated that they are working to implement a number of our recommendations.
We are pleased that HCFA agrees that improvements          are needed in the appeal and
grievance processes, and we recognize that changes are in the process of being made
through the Medicare Appeals and Grievance Initiative (MAGI).          However, because
HCFA’S response does not specifically address the recommendations        contained in our
reports, we are unsure whether the problems identified in our report will be fully
addressed through this initiative. As a result, it will be important for HCFA to include
in their response to the final report an action plan that specifically addresses each
recommendation.

Although HCFA acknowledges the case review report identifies mistakes made by
health plans, they expressed concerns about the sample sizes and number of cases
reviewed. We agree that this sample could not be used to make national projections
of the incidence of mistakes. However, the number of cases reviewed and outcomes
of the reviews are more than adequate to indicate the existence of significant problems
in HMO processing of appeals and grievances.

Finally, HCFA raised questions about the knowledge and expertise of the individuals
who prepared the HMOS’ responses to our survey documents.       We requested and
must assume that knowledgeable     HMO staff completed our survey. We also note that
beneficiaries making inquiries regarding appeals and grievances are likely to be
interacting with these same individuals or their staff.




                                            6

   APPENDIX                A




Health Care Financing Administration
        Response to Report




                A-1
 .fl”-’”~
1%
-&
     &      DEPARTMENT    OF HEALTH & HUMAN SERVICES                          Haalth Care Financing Administration


                                                                              The Admhdstrator
                                                                              Waahlnston, OrC,   20201


                                                DEC1219W

         DATE:

         TO:          June Gibbs Brown
                      Inspector Generil

         JmoM         Bruce C. Vladeck
                      Administrator

         su-Bi-Ec’R   Office of Inspector General (OIG) Draft Reports: CChledkueHMO Appeal
                      and Grievance Processes-Ovemiew~ (OEMT-94a0280); “Medicare
                      HMO Appeal and Grievance Processes--Benefidaries’ Understanding,”
                      (C)EI-07.94-00281);‘Medicare HMO Appeal and Grievqce Processes--
                      Sumey of HMOs,” (OEI-07-94-00282); “Medicare HM(l Appeal and
                      Grievance Processes–Review of Cases,” (OEM7-94-00283)

         We reviewed the above-referenced reports that examine the operations of the Medicare
         risk-based HMOSappeal and grievance processes. We agree with the conclusion of your
         report that improvements are needed and are working to implement a number of your
         recommendations. Our detailed comments are attached,

         Thank you for the opportunity to review and comment cmthis report,

         Attachment
               Health Care FinanciIw Administration (HCF’A)Comments
                           on 0fi5co of Iusuector General (OIG)
    Draft Reoorts: ‘%iCdiCW~ ~~tb     Maintenance ~fVM.i=tiOXIS’ ~ 0) Atmeal and
Grievance Processes “OvmieIWt’ (OEI-07-94-00280): M@iiM@WO          Appe@~d
&ievance Processes: “Beneficiaries’ Understamlim%“ fOEI-07-94-002811”%ledicare
    HMO APmal and CkievanceProcesses: “Survev of HMOsj’ (OEL07-94-00282);
          “Medicare HMO AoPeaI and Grievance Processes: “Review of Cases~’
                                    (OE1-07-94-Q0283}


OIG Reeomrnendatiom

OIG recommends that HCFA take the follotig      actions ti address probl-   highlighted
in the above stndies:

o     Actively monitor HMOS to ensure beneficiaries    arc issued written determinations,

0•    Woik with 13MOsto establish standdw - ed appeal and grievantx language
      requirements in xnarketingknrollment materials and operating procedures.

0      Ensure that HMOScorrectly distinguish and process appesls and grievances.

0•     Require HMOSto report Medicare contract-specitic data on appeal and grievance
       cases.

0      Mod@ the KMO/CMP Manual to Glar@ and speci& key requirements.

0      Broaden efforts to formally train IIMOS on the appeal and grievance processes.

H(2?A Response

We agree that improvements are needed. We have a comprehensive effort underway
called the Medicare Appeals and fievance Initiative (MAGI) whioh includes a number
of objectives that are directly related to the recommendations in your reports. Our
objectives include identifying and meeting the information needs of beneficiaries
regarding theu appeal rights; promoting hmlfi plan accountability by de~eloping and
impruving information on appeals and making rneanhgfblinformation mop available;
and refining mechanisms for monitoring and assisting in the continuous improvement of
health plan performance.
Page 2

OIG and HCFA jointly ksued a Medicare benefieiwy advisory btieti entitl@ “What
Medicare Wneficiarkx Need to Know About HMO Arrangements: Know Your Rights.”
‘Ms easy-to-mad docu.nmt conta@ information on appeal rights, filing co~pltits, and
rights to emergency and urgently needed services. Copies of this bulletin are being
distributed nationally. Additionally, significant chruqys were made to improve the
managed Grim portions of the Md.ieare Handboolq which was sent to all beneficiariw this
year. New data reporting requirements on plan-kwel reconsiderations an$under
development and may be instituted as early as mid-1997. We also pkm to restructure and
shorten the time lines fix handling health care decisions and reecmsiderationsby health
plans.



We are pleased to see the high level of lmowledge among Medicare kmrolleesregarding
their right to appeal and fife complaints, This is an improvement over w earlier finding,
and one we believe results from both Federal pro~am and pl~ effiwtstattxhmting
beneficiaries and providing notices, With regard to the fintig that bewficiwies tid a
lesser level of awareness as to when to exercise thek appe~ r@ts3 fofi~~g
regulations clari&ing the right to appeal when services are reduced or terminated and
when to provide notices of noncoverage at these points in care managemer$ should
significantly help address “ti problem, We wil consider the recommendations k this
area.

Survev HMOS

Incorrect categorization of appeals as grievances is an area for improvement identiled in
our MAGI initiative. However, we question the percentage and methodology set forth in
this report. Because oertttinstaff within the organizational structure of an HMO, or staff
at delegated medical groups within the HMO’s network are generally responsible for
t@@ng Gompkthh to the appealsor@ewmcetraG~it wouldbe importanttoknow
who responded to the two questions asked on this subject and what role they play in this
particular process, We will bemotig to identi@ the S9WWpr~bl~~ns,SN~hw ski&
tummr and confhsion over differences in Federal and statt terminology.
The type of statistical information sought by OIG staff has not been a requirement for
Medicare-contracting health plans. Therefore, it is not surprising that many plans
aggregate the appeals information across qo~ercj~      Medic~e, and Medicaid ~embers.
New plan-level appeals reporting requirements should resolve the need for Medicare-only
information, and respond to your recommendation
Page 3�




We have concerns about the small sample sizes and number of cases used to present
findings in this repofi However, the report identifies the types of mistalceshealth plain
make in operating an appeals syst~ and the needs that plans have for clear, distinct
information and tmining about the Medieare managed care requirements (and how these
differ from state requirements for thck commercial and Medieaid enrollees), We will
consider the ~txxmmmndationspresenteiL
